         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Audit Report
Department's Management of Cloud
Computing Services




OAS-RA-L-11-06                       April 2011
DOE F 1325.8
(08-93)
United States Government                                                                Department of Energy


Memorandum
        DATE:    April 1, 2011                                         Audit Report Number: OAS-RA-L-11-06
    REPLY TO
    ATTN OF:     IG-34 (A11TG021)
     SUBJECT:    Report on "Department's Management of Cloud Computing Services"
           TO:   Administrator, National Nuclear Security Administration
                 Acting Under Secretary of Energy
                 Under Secretary for Science
                 Chief Information Officer

                 INTRODUCTION AND OBJECTIVE

                 Cloud computing enables convenient, on-demand access to shared computing resources that
                 can be rapidly provided to users. According to the National Institute of Standards and
                 Technology (NIST) and industry experts, benefits of the cloud computing model include the
                 ability to more effectively manage Information Technology (IT) resources while reducing
                 operating costs. For instance, it permits organizations to plan computer usage and add or
                 subtract resources as necessary rather than invest in hardware and software that may be needed
                 but not necessarily frequently used. In addition, the cloud computing model can increase
                 employee mobility by allowing access to computing resources regardless of physical location.
                 Furthermore, it allows IT personnel to be more flexible in the allocation of resources, allowing
                 them to focus less on maintenance and more on innovation.

                 As part of the Office of Management and Budget's (OMB) 25 Point Implementation Plan to
                 Reform Federal Information Technology Management, each agency was required to identify at
                 least three cloud computing uses within its organization, of which one must be implemented
                 by December 2011. Prior to OMB's action, however, the Department of Energy (Department)
                 was already exploring various options to achieve greater efficiencies in service at a lower cost.
                 For example, Argonne National Laboratory (ANL) and Lawrence Berkeley National
                 Laboratory (LBNL) were exploring the use of cloud computing services for scientific
                 computing as part of the Magellan Cloud Computing Project. In addition, other Department
                 sites were evaluating cloud computing solutions that could allow them to utilize cloud services
                 for such things as email, calendaring, and a variety of collaboration tools. Due to the recent
                 push for the use of cloud computing, we initiated this audit to determine whether the
                 Department was adequately managing the expanding use of cloud computing services.

                 CONCLUSIONS AND OBSERVATIONS

                 Our review did not reveal material issues with the Department's limited use of cloud
                 computing services. However, we identified areas that the Department should consider before
                 it moves forward with adopting such technology on a large scale. For instance, we noted
several opportunities for improvement in the Department's cloud computing initiative. In
addition, we determined that certain areas related to management of the Magellan Project
could be enhanced. Specifically, we noted that:

   •   The Department had not yet prepared policies and procedures governing security and
       other risks and had not established coordination requirements among sites to prevent
       duplication or other problems with cloud deployment; and,

   •   Problems existed with resource disposition plans and Recovery Act-related job
       reporting for the Magellan Project.

                              Cloud Computing Program Planning

The Department had not developed or implemented formal policies or procedures related to
acquisition and security of cloud computing services. As noted by industry, common issues
that should be considered in such a policy are software licensing and information security risks
related to privacy, compliance, data location, certification, and records management. Although
no policies and procedures were in place, cloud computing applications were being used or
tested at several national laboratories, including ANL, LBNL, Pacific Northwest National
Laboratory (PNNL) and Los Alamos National Laboratory. As the Department develops and
implements policies related to cloud computing, it should consider guidance issued by the
NIST and Federal Risk and Authorization Management Program designed to ensure that IT
resources are appropriately secured.

We also identified opportunities for the Department to enhance its management and
coordination efforts when implementing cloud computing services. In particular, while we
noted that there was coordination of certain cloud computing projects among sites, we
identified other instances where such was not the case. For example, although Headquarters
officials from the National Nuclear Security Administration (NNSA) and Office of Science
stated that their sites were not utilizing cloud computing, our review identified that their sites
were actually utilizing some form of this technology. Absent effective coordination and
leadership by programs and sites, the Department may spend more time and resources than
necessary independently acquiring, developing, and/or implementing cloud computing
applications.

Without adequate planning, there is an increased risk that users may utilize cloud computing
products and services on the Department's networks, unnoticed, without undergoing adequate
security evaluations. For instance, PNNL officials stated that a user could purchase certain
cloud services without approval that may be difficult to detect on the site's networks. To
mitigate this risk, the Department should implement policies and procedures and coordinate its
efforts related to cloud computing.

                                         Magellan Project

The Department committed more than $32 million in American Recovery and Reinvestment
Act of 2009 (Recovery Act) funding to establish the Magellan Project which provided a test


                                         2
bed that researchers used for computations for midrange supercomputing for exploring the
work of commercial cloud offerings. During our review, we identified potential areas of
concern and/or opportunities for improvement related to the Magellan Project. In particular:

   •   Although ANL and LBNL had acquired and utilized approximately $16 million worth
       of IT hardware and software to support the Magellan Project, no decision had been
       made on what to do with the resources after the project is completed in September
       2011. Site officials commented that the hardware and software will most likely
       become the property of the laboratories and be transferred to other projects; however,
       they had not designated the equipment for a specific purpose. Absent adequate
       planning for future use, the Department may not be able to ensure that IT resources are
       used in the most effective and timely manner.

   •   Errors related to the number of jobs created by the Magellan Project that were reported
       to FederalReporting.gov were identified. We noted that officials at ANL were
       reporting non-Recovery Act and Recovery Act jobs together. Specifically, ANL
       reported that 46 jobs were created during the fourth quarter of Fiscal Year 2010 even
       though only 9 Recovery Act related jobs were actually created. Notably, the
       responsible Headquarters official corrected this reporting error after we brought it to
       his attention.

SUGGESTED ACTIONS

To improve the management of the use of cloud computing services and resources, we suggest
that appropriate officials from the Offices of the Under Secretary of Energy, Under Secretary
for Science, and the NNSA work with the Department and NNSA Chief Information Officers
to:

       1. Develop and implement effective practices and procedures related to acquisition
          and security of cloud computing services;

       2. Ensure appropriate coordination and monitoring of cloud computing activities
          among programs and/or sites; and,

       3. Improve planning and reporting for the Magellan Project, including developing a
          plan for the end state of IT resources and ensuring that information reported to
          FederalReporting.gov is accurate.

A formal response is not required. The suggested actions, if successfully implemented by the
Department, should help mitigate the risks associated with the concerns discussed in this
report.




                                       3
We appreciate the cooperation of your staffs and the various Departmental elements that
provided information or assistance.




                                    Daniel M. Weeber
                                    Director, Environment, Technology, and
                                     Corporate Audits Division
                                    Office of Inspector General

Attachment

cc:   Senior Policy Advisor, Office of the Under Secretary, S-3
      Chief of Staff
      Director, Office of Internal Controls, NA-66
      Assistant Director, Office of Risk Management, CF-80
      Team Leader, Office of Risk Management, CF-80
      Audit Resolution Specialist, Office of Risk Management, CF-80
      Audit Liaison, Office of Science, SC-41
      Audit Liaison, Office of the Chief Information Officer, IM-10




                                      4
                                                                                     Attachment

SCOPE AND METHODOLOGY

This audit was performed between October 2010 and March 2011 at Department of Energy
(Department) Headquarters in Washington, DC; Pacific Northwest National Laboratory,
Richland, Washington; Lawrence Berkeley National Laboratory, Berkeley, California; and the
Argonne National Laboratory, Argonne, Illinois. We also obtained information from the Los
Alamos National Laboratory, Los Alamos, New Mexico. To accomplish the audit objective, we:

   •   Conducted interviews with program and site officials to gain background information on
       the Department's use of cloud computing technology and identify any concerns, best
       practices, or future uses of cloud computing technology;

   •   Obtained and reviewed information from field sites relevant to costs related to cloud
       computing services with the focus on implementation costs and potential cost savings;

   •   Obtained and reviewed relevant laws, regulations, or policies; and,

   •   Analyzed documentation pertaining to policies and controls in place for cyber security,
       including change management, contingency/disaster recovery, records retention, and
       system auditability associated with cloud computing services being utilized by programs
       and sites reviewed.

We conducted this performance audit in accordance with generally accepted Government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. The audit included tests of internal
controls and compliance with laws and regulations to the extent necessary to satisfy the audit
objective. Because our review was limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our audit. During our audit, we
reviewed performance measures related to cloud computing in accordance with the Government
Performance and Results Act of 1993. We determined that limited performance measures
existed for the Magellan Project. We did not rely on computer-processed data to satisfy our
audit objective.

The National Nuclear Security Administration waived an exit conference. An exit conference
was held with the Office of the Chief Information Officer on March 29, 2011.




                                                5
                                                               IG Report No. OAS-RA-L-11-06

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 586-7013.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
